FDIC’s Mainframe Security

(Report No. 04-037, September 21, 2004)

Summary

International Business Machines (IBM) Business Consulting Services (hereafter referred to as
IBM), an independent professional services firm, was engaged by the Federal Deposit Insurance
Corporation (FDIC) Office of Inspector General (OIG) to support its efforts to satisfy reporting
requirements related to the Federal Information Security Management Act of 2002.

The objective of the audit was to determine whether the FDIC has adequate mainframe
management, operational, and technical security controls. IBM reviewed the adequacy of the
Division of Information Resources Management’s (DIRM) policies, procedures, practices, and
tools related to mainframe security.

IBM concluded that the FDIC has established and implemented management, operational, and
technical controls that provide reasonable assurance of adequate mainframe security. IBM also
followed up on audit recommendations in the Government Accountability Office (GAO)
(formerly the General Accounting Office) Report No. 04-629, Information Security: Information
System Controls at the Federal Deposit Insurance Corporation, dated May 28, 2004. IBM
found that the FDIC has made progress in its efforts to strengthen mainframe security, update
security policies and procedures, and increase employee security awareness.

Further, DIRM has completed the required certification activities in preparation for system
accreditation. These activities include completing a mainframe security plan; conducting a risk
assessment and preparing the final risk assessment report; performing a self-assessment of
mainframe management, operational, and technical controls; and completing a Plan of Actions
and Milestones.

IBM did find one aspect of mainframe security that could be improved.

Recommendation

IBM recommended that DIRM establish standards and procedures related to stored system
instructions.

Management Response

On September 14, 2004, the Director, DIRM, provided a written response to the draft report.
DIRM management concurred with and proposed actions that are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open for
reporting purposes.

This report addresses issues associated with information security. Accordingly, we have not
made, nor do we intend to make, public release of the specific contents of the report.
